CERTIFICATE OF SERVICE
NO.TBD
Charles Simon
Petitioner(s)
v.
United States Department of Justice, et al.
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Charles
Simon Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General of the United States
Room 5614, Dept of Justice
950 Pennsylvania Ave.
Washington, DC 20530-0001
(202)514-2217
supremectbriefs@usdoj .gov
Counsel for United States Department of
Justice, et al.

Lucas'DeDeus

September 20, 2019
SCP Tracking: Simon-3410 Dereimer Avenue-Cover White

